     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


   Catoosa County, Georgia, Effectively Managed 

  FEMA Public Assistance Grant Funds Awarded for 

     Severe Storms and Flooding in April 2011 





OIG-14-146-D                         September 2014

                                    OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 / www.oig.dhs.gov

                                             September 19, 2014

MEMORANDUM FOR:	                       Andrew Velazquez III
                                       Acting Regional Administrator, Region IV
                                       Federal Emergency Management Agency

FROM:               	                  John Kelly
                                       Assistant Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:            	                  Catoosa County, Georgia, Effectively Managed
                                       FEMA Public Assistance Grant Funds Awarded for Severe
                                       Storms and Flooding in April 2011
                                       FEMA Disaster Number 1973-DR-GA

                                       Audit Report Number OIG-14-146-D


We audited Public Assistance grant funds awarded to Catoosa County, Georgia (County)
(FIPS Code 047-99047-00). Our audit objective was to determine whether the County
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The County received a Public Assistance award of $6.2 million from the Georgia
Emergency Management Agency (Georgia), a FEMA grantee, for damages resulting from
tornadoes and strong winds, which occurred in April 2011. The award provided
75 percent FEMA funding for debris removal activities and emergency protective
measures. The award consisted of 5 large projects and 14 small projects. 1

We audited $6.0 million awarded under four large projects as identified in table 1.

                               Table 1: Schedule of Projects Audited
             Project       Category                Work                                 Amount
             Number        Of Work              Description                             Awarded
               215            A      Debris Removal                                     $ 149,050
               293            B      Emergency Protective Measures                         137,108
                320             A        Debris Removal                                  5,444,594
                343             B        Emergency Protective Measures                     307,605
                 Total                                                                  $6,038,357
                                        Source: FEMA Project Worksheets


1
    Federal regulations in effect at the time of disaster set the large project threshold at $64,200.

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


TheauditcoveredtheperiodfromApril26,2011,toOctober12,2012,duringwhichthe
Countyclaimed$6.2millionforallprojects.Atthetimeofouraudit,theCountyhad
submittedfinalclaimsonallprojectexpenditurestoGeorgia.

WeconductedthisperformanceauditbetweenJanuary2014andJuly2014underthe
authorityoftheInspectorGeneralActof1978,asamended,andaccordingtogenerally
acceptedgovernmentauditingstandards.Thosestandardsrequirethatweplanand
performtheaudittoobtainsufficient,appropriateevidencetoprovideareasonable
basisforourfindingsandconclusionsbaseduponourauditobjective.Webelievethat
theevidenceobtainedprovidesareasonablebasisforourfindingsandconclusions
basedonourauditobjective.Toconductthisaudit,weappliedthestatutes,regulations,
andFEMApoliciesandguidelinesineffectatthetimeofthedisaster.

WeinterviewedCounty,Georgia,andFEMApersonnel;gainedanunderstandingofthe
County’smethodofaccountingfordisasterͲrelatedcostsanditsprocurementpolicies
andprocedures;judgmentallyselected(generallybasedondollarvalues)andreviewed
projectcostsandprocurementtransactionsfortheprojectsincludedinourauditscope;
reviewedapplicableFederalregulationsandFEMAguidelines;andperformedother
proceduresconsiderednecessarytoaccomplishourauditobjective.Aspartofour
standardauditingprocedures,wealsonotifiedtheRecoveryAccountabilityand
TransparencyBoardofallcontractstheCountyawardedunderthegranttodetermine
whetherthecontractorsweredebarredorwhethertherewereanyindicationsofother
issuesrelatedtothosecontractsthatwouldindicatefraud,waste,orabuse.Asofthe
dateofthisreport,theRecoveryAccountabilityandTransparencyBoard’sanalysisof
contractswasongoing.Whenitiscomplete,wewillreviewtheresultsanddetermine
whetheradditionalactionisnecessary.Wedidnotperformadetailedassessmentofthe
County’sinternalcontrolsapplicabletoitsgrantactivitiesbecauseitwasnotnecessary
toaccomplishourauditobjective.


                                    RESULTSOFAUDIT

Fortheprojectswereviewed,theCountygenerallyaccountedforandexpendedFEMA
PublicAssistancegrantfundsaccordingtoFederalregulationsandFEMAguidelines.

                                                 
                DISCUSSIONWITHMANAGEMENTANDAUDITFOLLOWUP
                                               
WediscussedtheresultsofourauditwithCounty,Georgia,andFEMAofficialsduring
ouraudit.Wealsoprovidedadraftreportinadvancetotheseofficialsanddiscussedit
atanexitconferencewithFEMAonJuly22,2014andwiththeCountyandGeorgiaon



www.oig.dhs.gov                           2                                  OIGͲ14Ͳ146ͲD
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


July29,2014.Becausetheauditdidnotidentifyanyissuesrequiringfurtheractionfrom
FEMA,weconsiderthisauditclosed.

ConsistentwithourresponsibilityundertheInspectorGeneralAct,wewillprovide
copiesofourreporttoappropriatecongressionalcommitteeswithoversightand
appropriationresponsibilityovertheDepartmentofHomelandSecurity.Wewillpost
thereportonourwebsiteforpublicdissemination.

MajorcontributorstothisreportareDavidKimble,Director;FelipePubillones,Audit
Manager;andLarryJones,AuditorͲinͲCharge.

Pleasecallmewithanyquestionsat(202)254Ͳ4100,oryourstaffmaycontact
DavidKimble,Director,EasternRegionalOffice,at(404)832Ͳ6702.
                             




www.oig.dhs.gov                           3                                   OIGͲ14Ͳ146ͲD
                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


                                                                         Appendix
                                        
                               ReportDistribution
                                        
DepartmentofHomelandSecurity
Secretary
ChiefofStaff
ChiefFinancialOfficer
UnderSecretaryforManagement
ChiefPrivacyOfficer
AuditLiaison,DHS

FederalEmergencyManagementAgency
Administrator
ChiefofStaff
ChiefFinancialOffice
ChiefCounsel
Director,RiskManagementandCompliance
AuditLiaison,FEMARegionIV
AuditLiaison,FEMA(JobCodeGͲ14Ͳ022)

State
Director,GeorgiaEmergencyManagementAgency
StateAuditor,Georgia

Subgrantee
ChiefFinancialOfficer,CatoosaCounty

OfficeofManagementandBudget
Chief,HomelandSecurityBranch
DHSOIGBudgetExaminer

Congress
SenateCommitteeonAppropriations,SubcommitteeonHomelandSecurity
SenateCommitteeonHomelandSecurityandGovernmentalAffairs
HouseCommitteeonAppropriations,SubcommitteeonHomelandSecurity
HouseCommitteeonHomelandSecurity
HouseCommitteeonOversightandGovernmentReform
HouseCommitteeonTransportationandInfrastructure




www.oig.dhs.gov                       4                                OIGͲ14Ͳ146ͲD
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
